HHS/OIG Audit:"Audit of the Administration for Children and Families"Grant (09CY2073) to the Huckleberry Youth Programs for Its Huckleberry House, Basic Center for Runaway and Homeless Youth,"(A-06-01-00086)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Administration for Children and Families" Grant
(09CY2073) to the Huckleberry Youth Programs for Its Huckleberry House, Basic
Center for Runaway and Homeless Youth," (A-06-01-00086)
January 25, 2002
Complete Text of Report is available in PDF format (707 kb).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit of the Administration
for Children and Families' (ACF) grant (09CY2073) to the Huckleberry Youth Programs
for its Huckleberry House (HH) Basic Center for Runaway and Homeless Youth. This
grant covered the 3-year period September 1, 1997 through August 31, 2000. The
objectives of the audit were to determine if HH achieved the grant objectives,
complied with standard terms and conditions of the grant, and maintained a system
of accounting and internal controls capable of managing Federal funds. The HH
was able to achieve all objectives of the Basic Center for Runaway and Homeless
Youth grant. In addition, HH is generally able to manage and account for Federal
funds. However, there were some weaknesses in internal controls and compliance
with the terms and conditions of the grant. We recommended that HH refund $2,783
to the Federal Government for costs allocated to the grant that were not in accordance
with the terms and conditions of the grant or were unallowable by Federal regulation.
In addition, we recommended that HH develop and implement policies and procedures
to strengthen its internal controls.